No. 20-222
IN THE SUPREME COURT OF THE UNITED STATES
GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amici Curiae Public Citizen and Public Citizen Foundation contains 5,809
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on March 3, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

